                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             August 24, 2012




            OIG-CA-12-006

            The Honorable Orrin G. Hatch
            Ranking Member
            Committee on Finance
            United States Senate
            SD-219 Dirksen Senate Office Building
            Washington, DC 20510

            Dear Senator Hatch:

            This letter and its enclosures respond to your letters of October 18, 2011, and
            January 18, 2012. In those inquiries, you asked the Council of Inspectors General
            on Financial Oversight (CIGFO) to review the responses to inquiries that you made
            to voting members of the Financial Stability Oversight Council (FSOC) in late July
            and early August of 2011 regarding the debt limit.

            Our response to your specific questions is provided as Enclosure 1. Your letters are
            provided as Enclosure 2.

            In preparing our response, we (1) obtained and reviewed relevant information and
            documentation from the Department of the Treasury (Treasury) and (2) interviewed
            Treasury officials including the Deputy Assistant Secretary for FSOC, the Deputy
            General Counsel, senior counsel for the Treasury Office of Banking and Finance,
            and the Director and Assistant Director of the Office of Fiscal Projections. This
            work was performed by staff of the Treasury Office of Inspector General under my
            direction. I shared a draft of this response with the members of CIGFO.

            We are also sending a copy of this letter to the Honorable Max Baucus, Chairman,
            Senate Committee on Finance. We would be pleased to brief you or members of
            your staff on this response. If you have any questions, you may contact me at
                                                                                          Enclosure 1
                                                                                               Page 1

    Response by the Chair of the Council of Inspectors General on Financial Oversight
               and Inspector General of the Department of the Treasury

           Request for Information Regarding the Debt Ceiling Issues of 2011


      1. Determine whether Treasury was internally projecting, using its cash
         projection models, that it would not have sufficient cash to meet all
         projected incoming due obligations on July 28, 2011, or any day thereafter,
         absent an increase to the debt limit.

         We reviewed the Department of the Treasury’s (Treasury) daily cash balance
         projections as of July 21, 2011, for the period July 28 through August 31,
         2011. Absent an increase to the debt limit, our analysis of these projections
         showed that a sufficient cash balance would not be available to meet all
         incoming due obligations by August 11. Furthermore, we noted that the cash
         deficit would grow with each day that the debt limit was not raised. The
         projections assumed that investors would be willing to rollover existing debt
         that came due during the period. As shown in the August 2, 2011, Daily
         Treasury Statement, Treasury had an ending cash balance of approximately
         $54 billion. According to Treasury officials, had investors not been willing to
         roll-over debt securities, the cash balance could have been exhausted almost
         immediately because a payment of $87 billion would have been needed to
         pay maturing Treasury securities on August 4, 2011.

         Treasury officials stated that prior to August 2, 2011, they were concerned
         about how investors in Treasury securities might react if the debt limit was
         not raised by that date. The specific concern was that if the government’s
         borrowing authority were to expire on August 2, investors who ordinarily
         would roll over maturing Treasury securities (that is, reinvest the proceeds of
         maturing Treasury securities in new Treasury securities) might choose to
         invest elsewhere.

         Treasury’s daily cash balance projections are calculated by the Office of the
         Fiscal Assistant Secretary (OFAS) and updated on a regular basis. These
         estimates are based on (1) projected receipts, (2) projected cash outlays for
         government operations, and (3) projected net cash flows from marketable
         and non-marketable securities activity.1 Treasury officials told us that daily

1
 Marketable securities consist of Treasury bills, notes, bonds, and Treasury Inflation-Protected
Securities. After original issue by the Treasury, marketable securities can be bought and sold in the
                                                                                           Enclosure 1
                                                                                                Page 2

 Response by the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury

          Request for Information Regarding the Debt Ceiling Issues of 2011


       cash balance projections are inherently imprecise, as there are significant
       variations in the amount of receipts and expenditures for any given day.
       According to Treasury officials, the margin of error in these estimates at a
       98 percent confidence level is plus or minus $18 billion for 1 week into the
       future and plus or minus $30 billion for 2 weeks into the future.

   2. Determine what Treasury’s daily cash balance projections and daily
      projections of incoming due obligations were from July 28th through
      August 30th, 2011.

       We reviewed Treasury’s daily cash balance projections and daily projections
       of incoming due obligations from July 28 through August 31, 2011, as of
       July 21, 2011. Treasury makes these projections on a daily and monthly
       basis. We were told that in the days leading up to the debt limit, OFAS ran
       the daily projections multiple times per day as current information became
       available. Furthermore, OFAS ran its daily projections under various policy
       scenarios and finance assumptions. It should be noted that the monthly
       projection we reviewed, which was run as of July 21, 2011, was predicated
       on a resumption of borrowing on August 15. With that in mind, some
       examples of daily cash balance point projections were as follows: $52.7
       billion for July 28; $20.8 billion for August 4; -$0.8 billion for August 11;
       and $56.5 billion for August 18. As discussed in our response item 1 above,
       it should also be remembered that there are significant margins of error in
       these point estimates.




financial marketplace, and ownership is transferable. Non-marketable securities, such as U.S.
Savings Bonds, are non-transferable securities issued by the government and registered to the
owner. They cannot be sold in the financial market, but they can be redeemed, subject to
restrictions. Other types of non-marketable securities include Domestic Series securities, Foreign
Series securities, Rural Electrification Authority securities, State and Local Government Securities,
and Government Account Series debt.
                                                                         Enclosure 1
                                                                              Page 3

Response by the Chair of the Council of Inspectors General on Financial Oversight
           and Inspector General of the Department of the Treasury

       Request for Information Regarding the Debt Ceiling Issues of 2011


  3. On August 1st, was Treasury projecting (point estimate) that its operating
     cash balance for August 2nd, 2011, would be below its projection of due
     obligations in the absence of an increase in the statutory debt limit?

     Based on our review of Treasury’s daily cash balance projections as of
     July 21, 2011, for the period July 28 to August 31, 2011, Treasury’s
     operating cash balance for August 2 would not be below its projection of
     due obligations in the absence of an increase to the statutory debt limit. In
     fact, based on the document we reviewed, Treasury’s estimated daily cash
     balance was $69 billion and $65.6 billion on August 1 and August 2,
     respectively. Furthermore, a Treasury official told us that Treasury’s daily
     projection produced on August 1 showed that due obligations would not
     exceed its operating cash balance for August 2. Another Treasury official
     emphasized to us that Treasury had not stated that the government would
     be out of cash on August 2, 2011. According to the official, Treasury stated
     that the government would be out of borrowing authority on that date
     absent an increase to the statutory debt limit. In this regard, Treasury
     released statements on June 1 and July 1, 2011, where it announced, and
     reiterated, that borrowing authority would be exhausted on August 2, 2011.
     We also noted that Secretary Geithner had publicly emphasized this point as
     well.

  4. Determine whether there were contingency plans developed by FSOC voting
     member agencies for disruptions that could have occurred if the debt limit
     had not been raised and the federal government defaulted or if there was a
     credit rating downgrade on the U.S.

     According to the Treasury’s Deputy Assistant Secretary for FSOC, individual
     FSOC members recognized the fiscal policy challenge, but there was no
     collective initiative by FSOC to create an FSOC-directed/coordinated set of
     contingency plans had the debt limit not been raised. He further stated that
     although FSOC had conversations regarding the debt limit, creating such
     contingency plans would be outside of FSOC’s authority. FSOC does not
     interpret its statutory mandate to recommend fiscal policy. According to the
     Deputy Assistant Secretary for FSOC, FSOC is charged with identifying risks
                                                                           Enclosure 1
                                                                                Page 4

Response by the Chair of the Council of Inspectors General on Financial Oversight
           and Inspector General of the Department of the Treasury

       Request for Information Regarding the Debt Ceiling Issues of 2011


     and responding to emerging threats to financial stability. In this regard, FSOC
     did identify and report the threat to financial stability if the debt ceiling was
     not raised. The Deputy Assistant Secretary for FSOC further stated that it is
     FSOC’s view that Congressional action was the clear response to the debt
     limit.

     Treasury, acting outside of its capacity as a FSOC member, considered a
     range of options with respect to how Treasury would operate if the U.S. had
     exhausted its borrowing authority. Treasury considered asset sales; imposing
     across-the-board payment reductions; various ways of attempting to
     prioritize payments; and various ways of delaying payments. We were told
     that similar options had been evaluated by previous administrations during
     debt limit impasses. That said, Treasury reached the same conclusion that
     other administrations had reached about these options—none of them could
     reasonably protect the full faith and credit of the U.S., the American
     economy, or individual citizens from very serious harm. However, Treasury
     officials told us that organizationally they viewed the option of delaying
     payments as the least harmful among the options under review. Ultimately,
     the decision of how Treasury would have operated if the U.S. had exhausted
     its borrowing authority would have been made by the President in
     consultation with the Secretary of the Treasury.

     The following describes the various options that were under consideration.

     Asset Sales

     Treasury officials rejected the option of selling the Nation’s gold to meet
     payment obligations because selling gold would undercut confidence in the
     U.S. both here and abroad, and would be destabilizing to the world financial
     system. With respect to the portfolio of mortgage-backed securities owned
     by Treasury, Treasury officials concluded that a “fire sale” of these assets
     would be adverse to the interest of taxpayers and could jeopardize the still
                                                                                      Enclosure 1
                                                                                           Page 5

    Response by the Chair of the Council of Inspectors General on Financial Oversight
               and Inspector General of the Department of the Treasury

           Request for Information Regarding the Debt Ceiling Issues of 2011


         fragile housing market.2 Similarly, with respect to investments received in
         connection with the Troubled Asset Relief Program, Treasury officials
         determined that a “fire sale” of these investments would not maximize value
         for the taxpayer and could be detrimental to the economy in general. For
         both legal and practical reasons, Treasury officials determined that the sale
         of the government’s portfolio of student loans was not feasible. Moreover,
         even if Treasury had exercised these options, they would have bought very
         limited time.

         Across-the Board Payment Reductions

         After reviewing various ideas for remaining within the debt limit by imposing
         across-the-board payment reductions (such as cutting all payments by 40
         percent or another amount necessary to remain within the debt limit),
         Treasury officials concluded that such a payment regime would be difficult to
         implement, as Treasury’s payment systems are not designed to make such
         across-the-board cuts.

         Prioritization of Payments

         Treasury officials stated that Treasury also reviewed the idea of attempting
         to prioritize the many payments made by the federal government each day.
         Treasury noted that it makes more than 80 million payments per month, all
         of which have been authorized and appropriated by Congress. According to a

2
  The Housing and Economic Recovery Act of 2008 (HERA) authorized the Secretary of the Treasury
to purchase obligations and securities issued by the Federal National Mortgage Association (Fannie
Mae), the Federal Home Loan Mortgage Corporation (Freddie Mac), and the Federal Home Loan
Banks. Treasury’s authority to make these purchases ended December 31, 2009. However,
Treasury was authorized to sell or otherwise exercise any rights received in connection with these
purchases, at any time. Under its HERA authorities, Treasury purchased and sold mortgage backed
securities guaranteed by Fannie Mae and Freddie Mac (these securities are referred to as “agency
MBS”). In total, before its purchase authority expired, Treasury acquired $225 billion of agency
MBS. Treasury started to sell its agency MBS in March 2011. As of July 2011, Treasury’s reported
its agency MBS portfolio holdings were $82.9 billion. On March 19, 2012, Treasury announced the
completion of its sale of remaining agency MBS and reported that overall, cash returns of
$250 billion were received from the agency MBS portfolio through sales, principal, and interest.
                                                                          Enclosure 1
                                                                               Page 6

Response by the Chair of the Council of Inspectors General on Financial Oversight
           and Inspector General of the Department of the Treasury

       Request for Information Regarding the Debt Ceiling Issues of 2011


     Treasury official, the payments cover a broad spectrum of purposes deemed
     important by Congress. While Congress enacted these expenditures, it did
     not prioritize them, nor did it direct the President or the Treasury to pay
     some expenses and not pay others. As a result, Treasury officials determined
     that there is no fair or sensible way to pick and choose among the many bills
     that come due every day. Furthermore, because Congress has never
     provided guidance to the contrary, Treasury’s systems are designed to make
     each payment in the order it comes due.

     Delay of Payments

     Treasury officials told us that it was the Department’s organizational view
     that the least harmful option available to the country at the time, of these
     very bad options, was to implement a delayed payment regime. In other
     words, no payments would be made until they could all be made on a day-
     by-day basis. Even under this option, Treasury officials acknowledged that,
     because the U.S. operates at a deficit, payment delays under such a regime
     would have quickly worsened each day the debt limit remained at its limit,
     potentially causing great hardships to millions of Americans and harm to the
     economy.

  5. Provide any contingency plans identified in number 4 above.

     As discussed in the response to number 4 above, there was no collective
     initiative by FSOC to create contingency plans had the debt limit not been
     raised. That said, Treasury officials did develop various options and
     scenarios, and seemed to be settling in on a delayed payment regime.
     However, we were told that there was never a final plan that was presented
     to the President for approval. Accordingly, based on their description of
     these documents, we considered them to be pre-decisional, working drafts
     of options or scenarios, and therefore have no contingency plans to offer.

  6. Determine whether the FSOC met its statutory mandate for collective
     accountability for identifying risks and responding to emerging threats to
                                                                             Enclosure 1
                                                                                  Page 7

Response by the Chair of the Council of Inspectors General on Financial Oversight
           and Inspector General of the Department of the Treasury

       Request for Information Regarding the Debt Ceiling Issues of 2011


     financial stability and whether the FSOC reported on systemic risks
     surrounding the debt limit impasse.

     Based on our review of the applicable sections of the Dodd-Frank Wall Street
     Reform and Consumer Protection Act (Dodd-Frank Act) and other relevant
     documentation, we concluded that FSOC met its statutory mandate for
     identifying, responding, and reporting on emerging threats and systemic risks
     to the U.S. with regard to the debt limit impasse.

     As mandated by Section 112 of the Dodd-Frank Act, the purpose of FSOC is
     “to identify risks that could arise from the material financial distress or
     failure, or ongoing activities, of large, interconnected bank holding
     companies or nonbank financial companies, or that could arise outside the
     financial services marketplace… [and] to respond to emerging threats to the
     stability of the United States financial system.” Section 112 also requires
     FSOC to annually report and testify to Congress on, among other things,
     “potential emerging threats to the financial stability of the United States.”

     According to Treasury’s Deputy Assistant Secretary for FSOC, FSOC met its
     statutory responsibility in its 2011 Annual Report, where it highlighted the
     clear need for the debt limit situation to be addressed. The official noted that
     the risk to financial stability posed by a failure to raise the debt limit is
     different than other risks to financial stability, as the ability to eliminate the
     risk is entirely within the control of the U.S. government. If Congress had
     not raised the debt limit, it was the view that this would have inflicted
     significant harm on the U.S. and its citizens.
                                                                                   Enclosure 2
                                                                                        Page 1

  Letters to the Chair of the Council of Inspectors General on Financial Oversight
              and Inspector General of the Department of the Treasury


                                         Contents

October 18, 2011, letter from the Honorable Orrin G. Hatch ............................      2
to Inspector General Thorson

   Attachment A: July 27, 2011, letter from the Honorable Orrin G. Hatch .................   9
   to members of the Financial Stability Oversight Council

   Attachment B: July 29, 2011, letter from the Honorable Orrin G. Hatch ................. 12
   to members of the Financial Stability Oversight Council

   Attachment C: August 1, 2011, letter from Secretary of the Treasury Geithner ....... 13
   to the Honorable Orrin G. Hatch

   Attachment D: July 28, 2011, letter from Chairman Matz, National Credit Union ..... 15
   Administration to the Honorable Orrin G. Hatch

   Attachment E: August 11, 2011, letter from the Honorable Orrin G. Hatch ............. 17
   to Secretary Geithner

   Attachment F: September 23, 2011, letter from Secretary Geithner ....................... 21
   to the Honorable Orrin G. Hatch


January 18, 2012, letter from the Honorable Orrin G. Hatch ............................ 23
to Inspector General Thorson
                                                                        Enclosure 2
                                                                             Page 2

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                             Page 3

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                             Page 4

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                             Page 5

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                             Page 6

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                             Page 7

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                             Page 8

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                             Page 9

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 10

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 11

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 12

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 13

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 14

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 15

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 16

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 17

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 18

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 19

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 20

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 21

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 22

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 23

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
                                                                        Enclosure 2
                                                                           Page 24

Letters to the Chair of the Council of Inspectors General on Financial Oversight
            and Inspector General of the Department of the Treasury
